APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
Supplemental Order of the District Court of Creek
County, State of Oklahoma
(November 18, 2020) ............................................... 10a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Entry of Proper Order
(November 13, 2020) ............................................... 13a
Order of the District Court of Creek County, State
of Oklahoma, Accepting Stipulation
(October 19, 2020) ................................................... 17a
Agreed Stipulation, Relevant Excerpt
(October 19, 2020).............................................. 19a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 21a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ARNOLD DEAN HOWELL,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
NOT FOR PUBLICATION
Case No. C-2017-998
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
ROWLAND, VICE PRESIDING JUDGE:
Petitioner Arnold Dean Howell entered a guilty
plea in the District Court of Creek County, Case No.
CF-2015-186, to First Degree Murder (Count 1), in
violation of 21 O.S.Supp.2012, § 701.7(A), and First
Degree Robbery (Count 2), in violation of 21 O.S.2011,
§ 798. The Honorable Douglas W. Golden, District
Judge, accepted Howell’s guilty plea. The district court

App.2a
sentenced Howell to life imprisonment without the
possibility of parole on Count 1 and to twenty-five
years imprisonment on Count 2 with the sentences to
be served consecutively. Howell filed a timely motion
to withdraw his guilty plea. The district court denied
the motion after a hearing and Howell now appeals
the denial of his motion, raising the following issues:
(1) whether the State of Oklahoma lacked jurisdiction to prosecute his case;
(2) whether he was competent to enter a plea;
(3) whether his plea was knowingly and voluntarily entered in light of his intellectual disability;
(4) whether he received effective assistance of
counsel; and
(5) whether his sentence is excessive.
We find relief is required on Howell’s jurisdictional
challenge in Proposition 1, rendering his other claims
moot. Howell claims the State of Oklahoma did not
have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S. ___,
140 S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded Howell’s
case to the District Court of Creek County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues: (a) Howell’s status as an Indian; and (b)
whether the crime occurred within the boundaries of
the Muscogee Creek Nation Reservation. Our Order
provided that, if the parties agreed as to what the
evidence would show with regard to the questions
presented, the parties could enter into a written

App.3a
stipulation setting forth those facts, and no hearing
would be necessary.
On September 18, 2020, the parties filed a written
stipulation in which they agreed:(1) that Howell has
some Indian blood; (2) that he was a registered citizen
of the Muscogee Creek Nation on the date of the
charged offenses; (3) that Howell is an Indian for
purposes of the Major Crimes Act; and (4) that the
charged crimes occurred within the Muscogee Creek
Nation Reservation. The district court accepted the
parties’ stipulation.
On November 23, 2020, the District Court filed its
Findings of Fact and Conclusions of Law. The District
Court found the facts recited above in accordance with
the stipulation. The District Court concluded that
Howell is an Indian under federal law and that the
charged crimes occurred within the boundaries of the
Muscogee Creek Nation Reservation. The District
Court’s findings are supported by the record. The ruling
in McGirt governs this case and requires us to find the
District Court of Creek County did not have jurisdiction to prosecute and accept Howell’s plea. Accordingly,
we grant relief on error raised in Proposition 1.

App.4a
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED
WITH INSTRUCTIONS TO DISMISS. Pursuant
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
An Appeal from the District Court of Creek County
the Honorable Douglas W. Golden, District Judge
APPEARANCE AT PLEA HEARING
R. Lawrence Roberson
Ok Indigent Defense System
732 East Taft
Sapulpa, Ok 74066
Attorney for Defendant
Laura a. Farris
Assistant District Attorney
Creek Co. Courthouse
222 E. Dewey Ave., Suite 302
Sapulpa, Ok 74066
Attorney for State
APPEARANCES ON APPEAL AND REMAND
Katrina Conrad-Legler
Appellate Defense Counsel
P.O. Box 926
Norman, Ok 73070
Attorney for Petitioner
Mike Hunter
Attorney General
of Oklahoma

App.5a
Jennifer L. Crabb
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, Ok 73105
Attorney for State
Steve Rouse
Asst. District Attorney
Creek County District Attorney’s Office
222 E. Dewey Ave.
Sapulpa, Ok 74066
Attorney for State
APPEARANCE ON MOTION TO WITHDRAW
Erin S. Maxwell
Attorney at Law
P.O Box 21019
Oklahoma City, Ok 73154
Attorney for Defendant
Laura a. Farris
Assistant District Attorney
Creek Co. Courthouse
222 E. Dewey Ave.,
Suite 302 Sapulpa, Ok 74066
Attorney for State
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Result
LEWIS, J.: Concur
HUDSON, J.: Specially Concur

App.6a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.7a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established over
the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white section with whom they would
trade and associate. I just cannot get through my
mind how this bill can possibly be made to operate in
a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.9a
HUDSON, J.: SPECIALLY CONCURS
Today’s decision dismisses convictions for first
degree murder and first degree robbery from the District Court of Creek County based on the Supreme
Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452
(2020). This decision is unquestionably correct as a
matter of stare decisis based on the Indian status of
Petitioner and the occurrence of these crimes on the
Creek Reservation. Under McGirt, the State has no
jurisdiction to prosecute Petitioner for the murder
and robbery in this case. Instead, Petitioner must be
prosecuted in federal court. I therefore as a matter of
stare decisis fully concur in today’s decision. Further,
I maintain my previously expressed views on the
significance of McGirt, its far-reaching impact on the
criminal justice system in Oklahoma and the need
for a practical solution by Congress. See Bosse v. State,
2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur in
Results); Hogner v. State, 2021 OK CR 4, ___ P.3d ___
(Hudson, J., Specially Concurs); and Krafft v. State,
No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J.,
Specially Concurs) (unpublished).

App.10a
SUPPLEMENTAL ORDER OF THE DISTRICT
COURT OF CREEK COUNTY STATE OF
OKLAHOMA SAPULPA DIVISION
(NOVEMBER 18, 2020)
IN THE DISTRICT COURT OF CREEK COUNTY
STATE OF OKLAHOMA
SAPULPA DIVISION
________________________
ARNOLD DEAN HOWELL,
Defendant/Petitioner,
v.
STATE OF OKLAHOMA,
Plaintiff/Respondent.
________________________
Creek County Case No. CF-2015-186
Court of Criminal Appeals Case No. C-2017-998
Before: Douglas W. GOLDEN, District Judge.
COMES before the trial court the above-styled
matter as previously remanded for an evidentiary
hearing on the issues of whether the Defendant is an
Indian as defined by the Federal Code and, if so,
whether the acts leading to his criminal charges
occurred within the bounds of the Creek Reservation.

App.11a
PROCEDURAL HISTORY
By Order of the Criminal Court of Appeals dated
August 19, 2020, the matter was remanded to the trial
court with instructions to only address the issues of
Howell’s status as an Indian and whether the crime
occurred within the boundaries of the Creek Reservation. The trial court was further instructed to hold
an evidentiary hearing to determine these issues. The
Order of the Court of Criminal Appeals also provided
that a joint stipulation by the parties could be entered
in lieu of a hearing.
A Stipulation by the parties answering both
questions in the affirmative was filed on September 18,
2020. An Order Accepting Stipulation, which included
a copy of the Stipulation, was filed by the trial court
on October 19, 2020, and forwarded to the Court of
Criminal Appeals.
On November 13, 2020, the Court of Criminal
Appeals issued an Order to the trial court for entry of
a proper order that contained findings of fact and
conclusions of law. Furthermore, the Order specifically
stated the trial court’s Order Accepting Stipulation
did not contain conclusions of law.
FINDINGS OF FACT
Without a hearing, the parties entered a joint
stipulation agreeing that the acts occurred within
the boundaries of the Muscogee Creek Nation and
that Arnold Dean Howell, Jr. is an Indian for the
purposes of the Major Crimes Act. The Court finds
that the acts occurred within the boundaries of the
Muscogee Creek Nation and that Arnold Dean Howell,

App.12a
Jr. is an Indian for the purposes of the Major Crimes
Act.
CONCLUSIONS OF LAW
The issue of subject matter jurisdiction has been
raised by the defendant. See Sharp v. Murphy, 591
U.S. ___, 140 S. Ct. 2412 (2020) and McGirt v.
Oklahoma, 591 U.S. ___, 140 S. Ct. 2452 (2020).
While a close reading of the McGirt case does leave
some question as to whether procedural bars by the
State may apply in some circumstances (footnote 15),
the case at hand had not yet reached any potential
procedural bar. As this is clearly a case that falls
under the federal Major Crimes Act, the trial court
concludes the matter should be referred to Federal
Court.
/s/ Douglas W. Golden
District Judge
Creek County Case No.
CF-2015-186
Court of Criminal Appeals
Case No. C-2017-998

App.13a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR ENTRY
OF PROPER ORDER
(NOVEMBER 13, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ARNOLD DEAN HOWELL,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2017-998
Before: David B. LEWIS, President Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Scott ROWLAND, Judge.,
Robert L. HUDSON, Judge.
Arnold Dean Howell entered a guilty plea in the
District Court of Creek County, Case No. CF-2015186, to First Degree Murder (Count 1), in violation of
21 O.S.Supp.2012, § 701.7(A) and First Degree Robbery
(Count 2), in violation of 21 O.S.2011, § 798. On
March 20, 2017, the Honorable Douglas W. Golden,
District Judge, accepted Howell’s guilty plea. Howell
was sentenced to life without the possibility of parole

App.14a
on Count 1 and twenty-five years imprisonment on
Count 2 with the sentences to be served consecutively.
Howell filed a timely motion to withdraw his guilty
plea. After a hearing on the motion to withdraw held
on September 28, 2017, the motion was denied. Howell
appeals the denial of this motion.
On August 19, 2020, this Court remanded this case
to the District Court of Creek County for an evidentiary
hearing. On October 23, 2020, a document titled “Order
Accepting Stipulation” was filed in this Court. This
document, signed by the trial court, shows that the
parties agreed by stipulation that Howell is a member of the Muscogee Creek Nation. The parties also
agreed by stipulation that the location of the crime,
in Sapulpa, Oklahoma, is within the boundaries of
the Muscogee Creek Nation Reservation.
This Court’s Order remanding this case for evidentiary hearing specifically instructed the District Court
(a) to make written findings of fact and conclusions
of law, and (b) set forth the procedure for filing those
findings and conclusions, and any material presented
below, with this Court. We take this opportunity to
further clarify those procedures.
If the parties have stipulated to one or more
issues, but an evidentiary hearing was held, the
hearing shall be transcribed, and the court reporter
shall file an original and two (2) certified copies of
the transcript within twenty (20) days after the
hearing is completed. The District Court shall then
make written findings of fact and conclusions of law,
to be submitted to this Court within twenty (20) days
after the filing of the transcripts in the District
Court. The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s

App.15a
findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant/Petitioner, within
five (5) days after the District Court has filed its
findings of fact and conclusions of law below.
Where, as here, the parties have stipulated to
one or more issues on remand, if no evidentiary
hearing is held, the District Court Clerk shall transmit
the stipulations, the District Court’s findings of fact
and conclusions of law, and any other materials
made a part of the record, within five (5) days of the
date of that stipulation.
The District Court must make written findings
of fact and conclusions of law. Parties may suggest
proposed findings and conclusions, but the District
Court must adopt them and file its findings of fact
and conclusions of law in the District Court. In this
case, the parties stipulated only to the facts. The document filed in this Court titled “Order Accepting
Stipulation” does not contain conclusions of law. This
matter is REMANDED to the District Court for
entry of an order specifically containing the court’s
findings of fact and conclusions of law. The finding of
fact shall be filed in this Court within five (5) days
from the date of this order.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 13th day of November, 2020.

App.16a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice President Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST
/s/ John D. Hadden
Clerk

App.17a
ORDER OF THE DISTRICT COURT OF CREEK
COUNTY, STATE OF OKLAHOMA,
ACCEPTING STIPULATION
(OCTOBER 19, 2020)
IN THE DISTRICT COURT OF CREEK COUNTY
STATE OF OKLAHOMA
SAPULPA DIVISION
________________________
ARNOLD DEAN HOWELL,
Defendant/Petitioner,
v.
STATE OF OKLAHOMA,
Plaintiff/Respondent.
________________________
Creek County Case No. CF-2015-186
Court of Criminal Appeals Case No. C-2017-998
Before: Douglas W. GOLDEN, District Judge.
COMES before the trial court the above-styled
matters as remanded for an evidentiary hearing on
the issues of whether the Defendant is an Indian as
defined by the Federal Code and if so, whether the
acts leading to his criminal charges occurred within
the bounds of the Creek Reservation.
Without conducting a hearing on these issues,
the parties have conferred and entered a joint stipulation which answered both questions in the affirmative.

App.18a
A certified copy of the joint stipulation is attached as
Exhibit “A”.
The Stipulation is accepted by the trial court and
the matter now referred to the Court of Criminal
Appeals.
Dated this 19th day of October, 2020.
/s/ Douglas W. Golden
District Judge
Creek County Case No.
CF-2015-186
Court of Criminal Appeals
Case No. C-2017-998

App.19a
AGREED STIPULATION,
RELEVANT EXCERPT
(OCTOBER 19, 2020)
IN THE DISTRICT COURT OF CREEK COUNTY
2. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 15631 W.
188th Place S., Sapulpa, OK 74066-1904. This
address is within the boundaries of the
Muscogee Creek Nation — boundaries established through a series of treaties between
the Muscogee Creek Nation and the United
States government.

b.

These boundaries have been explicitly recognized as establishing a reservation, as defined
by 18 U.S.C. § 1151(a), and reaffirmed by the
United States Supreme Court in McGirt v.
Oklahoma, __U.S.__, 140 S.Ct. 2452, 207 L.
Ed.2d 985 (2020).

3. As to the status of the defendant, the parties
hereby stipulate and agree as follows:
a.

The defendant, Arnold Dean Howell, Jr., is an
Indian, for purposes or the Major Crimes
Act. Mr. Howell has 1/2 Creek blood and was
a member of the Muscogee Creek Nation
(Roll Number 66723) at the time of the
crimes.

App.20a
/s/ Katrina Conrad-Legler
Counsel for Defendant/Appellant
/s/ Jennifer Crabb
Counsel for Plaintiff/Appellee
/s/ Steve Rouse
Counsel for Plaintiff/Appellee
I, Amanda Van Orsdol, Court Clerk for Creek
County, Oklahoma, hereby certify that the foregoing
is a true, correct and full copy of the instrument
herewith set out as appears on of record in the Court
Clerks office of Creek County, Oklahoma, This 19th
day of October, 2020.
/s/ Doris Doane
Deputy
Amanda Van Orsdol
County Clerk

App.21a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ARNOLD DEAN HOWELL,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2017-998
Before: David B. LEWIS, President Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Scott ROWLAND, Judge.,
Robert L. HUDSON, Judge.
Arnold Dean Howell entered a guilty plea in the
District Court of Creek County, Case No. CF-2015186, to First Degree Murder (Count 1), in violation of
21 O.S.Supp.2012, § 701.7(A) and First Degree Robbery
(Count 2), in violation of 21 O.S.2011, § 798. On
March 20, 2017, the Honorable Douglas W. Golden,
District Judge, accepted Howell’s guilty plea. Howell
was sentenced to life without the possibility of parole
on Count 1 and twenty-five years imprisonment on

App.22a
Count 2 with the sentences to be served consecutively.
Howell filed a timely motion to withdraw his guilty
plea. After a hearing on the motion to withdraw held
on September 28, 2017, the motion was denied. Howell
appeals the denial of this motion.
In Proposition 1 of his Brief-in-Chief and related
Application for Evidentiary Hearing on Sixth Amendment Claim, filed on March 16, 2018, Howell claims
the District Court lacked jurisdiction to try him.
Howell argues that he is a citizen of the Muscogee
(Creek) Nation and the crimes occurred within the
boundaries of the Creek Reservation. Howell, in his
certiorari appeal, relies on jurisdictional issues raised
in Murphy v. Royal, 875 F.3d 896 (10th Cir. 2017),
which was affirmed by the United States Supreme
Court in Sharp v. Murphy, 591 U.S. ___, 140 S. Ct. 2412
(2020) for the reasons stated in McGirt v. Oklahoma,
591 U.S. ___, 140 S. Ct. 2452 (2020).1
Howell’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the District Court of Creek County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
1 On March 25, 2019, we held Howell’s certiorari appeal in abeyance pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked to file a response to
Howell’s jurisdictional claim. In light of the present order, there
is no need for a response from the State at this time and that
request is DENIED.

App.23a
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Howell’s presentation of
prima facie evidence as to his legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, the Howell’s status as an Indian. The District Court must determine whether (1) Howell has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s
findings of fact and conclusions of law, and any other
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48 ¶ 6, 644 P.2d
114, 116.

App.24a
materials made a part of the record, to the Clerk of
this Court, and counsel for Howell, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of Howell’s Brief-inChief and Application for Evidentiary Hearing on
Sixth Amendment Claim with this Order, to the District Court of Creek County.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.25a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice President Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST
/s/ John D. Hadden
Clerk

